No. 19-395

3fn tlje

Supreme Court of tfje QSntteb States;
CHRISTINA ALESSIO,
Petitioner,
V.

UNITED AIRLINES, INC.,
Respondent.

On a Petition for Writ of Certiorari to the
United States Court of Appeals for the Sixth Circuit
SUPPLEMENTAL BRIEF OF PETITIONER

Christina Alessio
Petitioner Pro Se
1970 N. Cleveland-Massillon Road
Unit 589
Bath, OH 44210
(330) 338-7052
October 16,2019
SUPREME COURT PRESS

♦

(888) 958-5705

♦

Boston, Massachusetts

1

SUPPLEMENTAL BRIEF OF PETITIONER
With respect, and per Rule 15.8, Petitioner files
a supplemental brief to call attention to intervening
facts not available at the time of filing, on September
19, 2019, of the Petition for Writ of Certiorari. The
contents of this brief are restricted to these new facts
dating September 23 to October 9, 2019.
With respect, Petitioner would like to provide
concerning recent experiences in late September and
early October, 2019, submitted to the Respondent in
Irregular Operation Reports (IOR’s), for a sincere,
mindful judical review for granting the Petitioner a
Writ of Certiorari.
Respectfully, it has been communicated to the
Petitioner by the Respondent in the Irregular Opera­
tion Reports under: “Action Item Link Response”, the
following: “Confidential — Do not forward, share, or
distribute.” With respect to the Respondent, the
Petitioner’s written Irregular Operation Reports (IOR’s,
unable to submit to the Court) were respectfully sub­
mitted to the Respondent due to my duty, obligation
and responsibility as a Flight Attendant, to ensure a
safe and comfortable environment in the Aircraft Cabin
and per the Respondent’s Policy and Procedures.
With the greatest respect, may THE SUPREME
COURT, in the interest of the Public’s Air Travel Safety
and Health, grant the Petitioner’s Writ of Certiorari.

2

CONCLUSION
For the most recent and concerning Petitioner’s
experiences, and the inablity to provide the written
reports per the Respondents instruction and direction,
for simple insight, clarity and understanding in a
Petitioner’s Supplemental Brief, may THE SUPREME
COURT, find merit in granting the Petitioner a Writ
of Certiorari.
Respectfully submitted,
Christina Alessio
Petitioner Pro Se
1970 N. Cleveland-Massillon Road
Unit 589
Bath, OH 44210
(330) 338-7052
October 16,2019

CERTIFICATE OF SERVICE
No. 19-395
Christina Alessio
Petitioner(s)
v.
United Airlines, Inc.
Respondent(s)
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
)SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the
Supplemental Brief of Petitioner Christina Alessio, by mailing three (3) true and correct copies
of the same by USPS Priority mail, postage prepaid for delivery to the following addresses:
Natalie Michele Stevens
Ogletree Deakins
127 Public Square
Suite 4100
Cleveland, OH 44114
(216) 241-6100
natalie. stevens@ogletree. com
Counselfor United Airlines, Inc.

Lucas “DeDeus

October 16, 2019
SCP Tracking: Alessio-1970 N. Cleveland-Massillon Road-Cover TAN

